Report No. D-2008-050        February 11, 2008




       Report on FY 2006 DoD Purchases
               Made Through the
          Department of the Treasury
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
 (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-4704




Acronyms

ADA                  Antideficiency Act
ARDEC                U.S. Army Armament Research, Development, and Engineering
                        Center
COTR                 Contracting Officer Technical Representative
DFARS                Defense Federal Acquisition Regulation Supplement
FAR                  Federal Acquisition Regulation
FBMS                 FedSource Business Management System
FS-9                 FedSource 9
GAO                  Government Accountability Office
IDIQ                 Indefinite-Delivery, Indefinite-Quantity
IGCE                 Independent Government Cost Estimate
IG                   Inspector General
MIPR                 Military Interdepartmental Purchase Request
OIG                  Office of Inspector General
O&M                  Operations and Maintenance
OPI                  Olympic Precision, Inc.
PMI                  Precision Manufacturing Initiative
PNM                  Price Negotiation Memorandum
QASP                 Quality Assurance Surveillance Plan
RFP                  Request for Proposal
RDT&E                Research, Development, Test, and Evaluation
USD(C)               Under Secretary of Defense (Comptroller)
OUSD (P&R)           Office of the Under Secretary of Defense (Personnel and
                        Readiness)
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                        February 11,2008

 MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                              TECHNOLOGY, AND LOGISTICS
                          UNDER SECRETARY OF DEFENSE
                            (COMPTROLLER)I CHIEF FINANCIAL OFFICER

SUBJECT: Report on FY 2006 000 Purchases Made Through the Department of
         Treasury (Report No. D-2008-050)

      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.

  .   . Comments on the draft of this report conformed to the requirements of DoD
DIrectIve 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

         We appreciate the courtesies extended to the staff. Questions should be directed
to me at (703) 604-9201 (DSN 664-9201) or Mr. Terry L. McKinney at (703) 604-9288
(DSN 664-9288). See Appendix E for the report distribution. The audit team members
are listed inside the back cover.




                                By direction of the Deputy Inspector General for Auditing:




                                            Richard B. Jolliffe
                                      Assistant Inspector General
                                  Acquisition and Contract Management



 cc: Inspector General, Department of the Treasury
                     Department of Defense Office of Inspector General
Report No. D-2008-050                                                 February 11, 2008
  (Project No. D2007-D000CF-0034.000)

                          FY 2006 DoD Purchases Made Through
                             the Department of the Treasury

                                        Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program managers, and
financial managers should read this report because it discusses planning, funding, and reviewing of
purchases made through the Department of the Treasury’s franchise activity, FedSource. The
primary function of FedSource is to award and administer task orders on behalf of customer agencies
for commonly required services.

Background. This report is one of a series of reports on DoD purchases made through non-DoD
activities. For each covered non-Defense agency, Section 811 of Public Law 109-163, “National
Defense Authorization Act for Fiscal Year 2006,” requires the DoD Inspector General and the
Inspector General of such non-DoD agency to jointly review “procurement policies, procedures, and
internal controls of such non-Defense agency that are applicable to the procurement of property and
services on behalf of the Department by such non-Defense agency.” The joint review was to
determine whether the non-Defense agency was in compliance with DoD procurement policies,
procedures, and internal controls. If the non-Defense agency was not compliant, a second review the
following year was required. At the conclusion of our initial review, we jointly informed staffers
working for the Senate Armed Services Committee that contracting and funding issues existed at
FedSource resulting in noncompliance with DoD procurement policies.

To perform the audit, we and the Department of the Treasury, Office of the Inspector General jointly
revisited FedSource. FedSource processed 26,344 contract actions consisting of task orders and
modifications in FY 2006 amounting to $404.1 million and received 4,533 military interdepartmental
purchase requests totaling $207.3 million to fund DoD requirements.

Results. DoD and FedSource contracting and program management officials improved the assisted
acquisition contracting process and were generally compliant with Defense procurement
requirements. We believe DoD should continue to use FedSource since it demonstrated significant
improvements in competition, price reasonableness, and use of appropriated funds from our prior
review. These areas weighed heavily in our overall evaluation to support the continued use of
FedSource. Although issues were raised on interagency agreements, market research, and
surveillance, DoD has primary responsibility to establish the interagency agreement and conduct
market research to identify the most cost-effective method to fulfill its requirements. Surveillance
affects both FedSource and DoD. FedSource had shown improvement, but not enough to avoid
identifying issues again during this review. We noted areas where DoD and FedSource were not
fully compliant again, but as previously stated, overall significant improvements occurred in a
number of areas from the prior review. We reviewed 29 task orders initiated by 15 DoD activities
awarded at 3 FedSource centers. We found that:

       •   twenty-nine (of 29) task orders valued at $11.2 million had either an inadequate
           interagency agreement or no agreement;
•   twenty-nine (of 29) task orders valued at $11.2 million were not supported by
    documentation showing that market research was performed;

•   ten (of 29) task orders valued at $6.8 million contained inadequate or no documentation to
    support price reasonableness;

•   four (of 29) task orders valued at $2.3 million were awarded with no competition;

•   twenty-nine (of 29) task orders valued at $11.2 million had inadequate contract
    surveillance plans; and

•   one (of 29) task order valued at $323,971 was improperly funded, resulting in a potential
    Antideficiency Act violation.

As a result, DoD activities did not obtain the most cost-effective goods and services to meet
valid operational requirements in compliance with laws and regulations. We also found DoD
funds valued at $3.9 million at FedSource that were expired or otherwise unavailable to
support DoD operations. Material internal control weaknesses requiring DoD action are in
market research, price reasonableness, and surveillance and were addressed in the Defense
Inspector General Report No. D-2005-096, “DoD Purchases Made Through the General
Services Administration,” July 29, 2005.

FedSource’s growth and business strategy have outpaced its ability to support customers with
existing contracts. The size and complexity of FedSource’s activities require more robust
business processes and systems to effectively manage them. The Department of the Treasury
Division of Procurement Services was directed by the Administrative Resources Center’s
Executive Director on January 19, 2007, to cancel all solicitations intended to result in
follow-on contracts on behalf of FedSource. The cancellation eliminated the ability to award
a follow-on contract to the current multiple-award contract used extensively by FedSource to
issue task orders on behalf of DoD customers. As a result of these actions by the Department
of the Treasury, FedSource support will end its large multiple-award contract on September
30, 2008. FedSource has not been issuing new task orders as of September 2007 and only
was going to finish out options beyond this period. FedSource has notified DoD customers of
this condition and provided them advance notice that future requirements will not be fulfilled.
Overall, we believe DoD should continue to use FedSource until it can redirect its business
elsewhere when FedSource no longer exists.

We made recommendations addressing interagency agreements, market research, and
surveillance to the Under Secretary of Defense for Acquisition, Technology, and Logistics in
DoD Inspector General Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
General Services Administration,” October 30, 2006. Accordingly, we did not make the same
recommendations again. In this report, we recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer oversee efforts by DoD to deobligate $3.9 million in
expired funds on FedSource’s accounting records as of May 2007. Recommendations
regarding a potential funding violation will be included in another report “Summary Report
on Potential Antideficiency Act Violations Resulting From DoD Purchases Made Through
Non-DoD Agencies FY 2004 Through FY 2007,” to be issued in FY 2008.
Recommendations to the Department of the Treasury are included in a report being prepared
by the Department of the Treasury Inspector General. (See the Finding section of the report
for the recommendation contained in the report.)


                                           ii
Management Comments and Audit Response. The Deputy Chief Financial Officer, the Under
Secretary of Defense (Comptroller)/Chief Financial Officer provided comments. The Deputy Chief
Financial Officer concurred with the report and intends to review and deobligate valid amounts
identified by the DoD Components. Also, the Deputy Chief Financial Officer will continue to obtain
data from FedSource to assist in identifying and facilitating the return of expired or excess funding.




                                                  iii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     4

Review of Internal Controls                                                    4

Finding
     DoD Use of FedSource Services                                             5


Appendixes
     A.   Scope and Methodology                                               23
     B.   Prior Coverage                                                      26
     C.   Purchases’ Deficiencies                                             29
     D.   Regulations                                                         32
     E.   Report Distribution                                                 35

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               37
Background
        2006 National Defense Authorization Act. This audit was performed to meet
        requirements of Public Law 109-163, “National Defense Authorization Act for
        Fiscal Year 2006,” January 6, 2006, which states in Section 811:

                 (a) INSPECTOR GENERAL REVIEWS AND DETERMINATIONS.
                 (1)—IN GENERAL.—For each covered non-defense agency, the Inspector General of
                 the Department of Defense and the Inspector General of such non-defense agency shall,
                 not later than March 15, 2006, jointly

                         (A) review—

                                  (i) the procurement policies, procedures, and internal controls of such
                                  non-defense agency that are applicable to the procurement of property
                                  and services on behalf of the Department by such non-defense agency;
                                  and

                                  (ii) the administration of those polices, procedures, and internal
                                  controls; and

                         (B) determine in writing whether—

                                  (i) such non-defense agency is complaint with defense procurement
                                  requirements;

                                  (ii) such non-defense agency is not complaint with defense
                                  procurement requirements, but has a program or initiative to
                                  significantly improve compliance with defense procurement
                                  requirements; or

                                  (iii) neither of the conclusions stated in clauses (i) and (ii) is correct in
                                  the case of such non-defense agency.

                 (2) ACTIONS FOLLOWING CERTAIN DETERMINATIONS.—If the Inspectors
        General determine under paragraph (1) that the conclusion stated in clause (ii) or (iii) of
        subparagraph (B) of that paragraph is correct in the case of a covered non-defense agency, such
        Inspectors General shall, not later than June 15, 2007, jointly—

                         (A) conduct a second review, as described in subparagraph (A) of that
        paragraph, regarding such non-defense agency’s procurement of property or services on behalf of
        the Department of Defense in fiscal year 2006; and

                         (B) determine in writing whether such non-defense agency is or is not compliant
        with defense procurement requirements.              •       •        •        •         •
                 •       •

      (d) LIMITATIONS ON PROCUREMENTS ON BEHALF OF DEPARTMENT OF
DEFENSE. —
               (1) LIMITATION DURING REVIEW PERIOD. —After March 15, 2006, and before
      June 16, 2007, no official of the Department of Defense may, except as provided in subsection (e)
                                                    1
       or (f), order, purchase, or otherwise procure property or services in an amount in excess of
       $100,000 through a covered non-defense agency for which a determination described in paragraph
       (1) (B) (iii) of subsection (a) has been made under that subsection.

                (2) LIMITATION AFTER REVIEW PERIOD. —After June 15, 2007, no official of the
       Department of Defense may, except as provided in subsection (e) or (f), order, purchase, or
       otherwise procure property or services in an amount in excess of $100,000 through a covered non-
       defense agency that, having been subject to review under this section, has not been determined
       under this section as being compliant with defense procurement requirements.

Section 811 states that the Department of the Treasury (Treasury) is one of the covered
non-Defense agencies to be reviewed. Specifically, section 811 of the Act, “Internal
Controls for Procurements on Behalf of the Department of Defense,” requires the DoD
Office of Inspector General (OIG) and the Treasury OIG to conduct a second review on
the procurement policies, procedures, and internal controls of the Department of the
Treasury that are applicable to the procurement of property and services on behalf of
DoD by the Department of the Treasury. Furthermore, the act requires that the review
also encompass the administration of those policies, procedures, and internal controls.

To comply with the FY 2006 Defense Authorization Act, the DoD OIG and Treasury
OIG reviewed FY 2006 contract actions made by FedSource on behalf of DoD. In FY
2006, FedSource issued 26,344 contract actions for all customers representing
$404.1 million. FedSource issued 12,354 contract actions on behalf of DoD in FY 2006
totaling $165.6 million.

The DoD OIG and Treasury OIG judgmentally selected 57 basic task orders valued at
$24.1 million issued between July 1 and September 30, 2006, from 3 of FedSource’s
6 centers. During this period, FedSource processed 251 task orders valued at
$35.6 million. Including modifications, a total of 330 contract actions were issued by the
3 FedSource centers totaling approximately $38.5 million. We selected 29 contract
actions valued at $11.2 million for review and the Treasury auditors reviewed 28 contract
actions valued at $12.9 million. Of the 29 contract actions we selected for review, we
visited 4 FedSource centers, the Department of the Treasury, Bureau of the Public Debt,
Administrative Resources Center, and selected DoD installations.

Treasury Franchise Fund. The Government Management Reform Act of 1994
authorized the establishment of the Franchise Fund Pilot Program. In 2004, Public
Law 108-447, section 219 and section 101(f) of the Treasury Department Appropriations
Act, permanently established the franchise fund. The Treasury Franchise Fund is an
entrepreneurial Governmental enterprise established to provide common administrative
support services, on a competitive and fully cost-reimbursable basis to other components
within Treasury and to outside agencies. The Treasury Franchise Fund operates in a
businesslike manner by creating and maintaining a business relationship and environment
that promotes customer participation and satisfaction through delivery of quality
performance, teamwork, and continuous improvement, both in service delivery and
economic benefit.

The Treasury Franchise Fund is made up of four individual franchise business activities:
the Administrative Resource Center, FedSource, Treasury Agency Services, and the
Federal Consulting Group. The Treasury Franchise Fund offers services to customers for
accounting, travel, procurement, human resources, project support, digital

                                                 2
copiers/document automation, professional development, training, and consulting. These
business activities are required to recover their full costs of doing business and are
allowed to retain up to 4 percent of their total annual income. To cover their costs, the
franchise business activities charge fees for their services. A Government Accountability
Office (GAO) report, (number 05-456, July 2005) on interagency contracting, titled
“Franchise Funds Provide Convenience, but Value to DoD is Not Demonstrated,”
provides that Congress anticipated the franchise funds would be able to provide common
administrative services more efficiently than Federal agencies’ own personnel. The
original operating principles for franchise funds included offering services on a fully
competitive basis, using a comprehensive set of performance measures to assess the
quality of franchise fund services, and establishing cost and performance benchmarks
against their competitors (other Government organizations providing the same types of
services).

FedSource. FedSource consists of six operation centers located in San Antonio,
Baltimore, Cincinnati, St. Louis, Seattle, and Los Angeles. The primary function of
FedSource is to award and administer task orders on behalf of customer agencies for
commonly required services. FedSource provides integrated contract and financial
administration services to more than 2,500 Federal customers. FedSource can leverage
its buying power through its marketplace presence to obtain pricing that would otherwise
be unavailable to agencies purchasing these services on their own. The stated goal of
FedSource is to provide an intelligent, alternative source for the effective delivery of
administrative support services. In addition, FedSource seeks to provide services on a
fully competed basis and provide surge capability to meet the customer’s mission needs.
The overall FedSource mission is to leverage commercial and industry best practices to
offer innovation in Government-to-Government procurement and contract administration
for Federal managers. DoD customers represented about 40 percent of the total
FedSource business conducted in FY 2006.

FedSource Improvements Since Prior Audits. FedSource responded to many
recommendations made during prior audits by the DoD Inspector General (IG) and the
Treasury IG. FedSource significantly improved its procurement practices covering
competition and appropriate use of funds. Competition improved through
implementation of Section 803 to ensure fair opportunity is provided on most DoD
requirements filled through task orders. Routine buys were eliminated that had
previously impeded competition among all potential bidders. The number of potential
Antideficiency Act (ADA) violations dropped from 21 reported in our prior review to
only 1 potential violation in this report. Further, FedSource developed a procedure to
address funding to ensure the proper appropriation and fiscal year are accurately cited on
DoD funding documents received. Improvements occurred in price reasonableness
whereby FedSource increased the sources considered for determining fair and reasonable
pricing. FedSource still needs to improve documentation on the negotiation process in the
price negotiation memorandum (PNM). Also, further improvements are needed
regarding quality assurance surveillance plans (QASP) and surveillance. Overall,
FedSource demonstrated progress on contractual and funding areas although there are
areas for continued improvement.

Further, the Bureau of the Public Debt administers the multiple-award contracts on behalf
of FedSource to use for issuing task orders. The Bureau of the Public Debt will not issue
a new multiple-award contract set to replace the existing one known as the FedSource 9
(FS-9) multiple-award contract. The FS-9 consists of nine contractors that are all eligible

                                            3
to compete on requests for proposals (RFP) that fall within the contract scope of work.
The FS-9 will not be available to DoD customers after September 30, 2008. As a result,
DoD customers have been notified that they will have to obtain alternative contracting
sources to fulfill future requirements.


Objectives
       The objective of the audit was to review DoD purchases made through the
       Department of the Treasury in FY 2006. Specifically, we examined the policies,
       procedures, and internal controls to determine whether there was a legitimate
       need for DoD to use Treasury, whether DoD clearly defined requirements,
       whether Treasury and DoD properly used and tracked funds, and whether
       Treasury complied with Defense procurement requirements. We also examined
       how Treasury accepts and fulfills DoD requirements. See Appendix A for a
       discussion of the scope and methodology. See Appendix B for prior coverage
       related to the objective.


Review of Internal Controls
       At the sites visited, we identified material internal control weaknesses as defined
       by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
       Procedures,” January 4, 2006. DoD organizations are required to ensure the
       acquisition strategy is in the best interest of the Government. The sites we visited
       encountered problems while implementing and executing policy. Furthermore,
       contracting, financial, and accounting officials did not always comply with
       regulations and statutes. Specifically, we identified material internal control
       weaknesses on market research because the most cost-effective contracting
       method to fulfill DoD requirements was not documented. We identified a
       material internal control weakness with price reasonableness because inadequate
       analyses and support existed for task order award prices. Lastly, we identified
       material internal control weakness with surveillance because of DoD’s and
       FedSource’s failure to establish sound oversight plans to monitor contractor
       performance. Implementing the recommendations contained in previously issued
       reports from our series of audits related to interagency contracts should improve
       contracting procedures for task orders awarded using non-DoD contracts. Also,
       the fact that FedSource operations are being curtailed in September 2008 will
       eliminate the problems noted. A copy of these reports will be provided to the
       senior official responsible for internal controls in the Office of the Under
       Secretary of Defense (Comptroller)/Chief Financial Officer.




                                            4
           DoD Use of FedSource Services
           DoD and the Department of the Treasury FedSource management and
           contracting officials did not always comply with the Federal Acquisition
           Regulation (FAR) and DoD procurement regulations when making
           purchases through FedSource. We reviewed 29 task orders valued at
           $11.2 million awarded by FedSource contracting officers on behalf of
           DoD activities. Of 29 task orders reviewed, we determined:

                  •   twenty-nine (of 29) valued at $11.2 million had either no
                      interagency agreement or an interagency agreement that lacked
                      specific details;

                  •   twenty-nine (of 29) valued at $11.2 million contained either
                      inadequate or no documentation of market research;

                  •   ten (of 29) valued at $6.8 million contained either inadequate
                      or no documentation to support price reasonableness;

                  •   four (of 29) valued at $2.3 million had inadequate competition;

                  •   twenty-nine (of 29) valued at $11.2 million had inadequate
                      contract surveillance plans; and

                  •   one (of 29) valued at $323,971 was improperly funded,
                      resulting in a potential Antideficiency Act violation.

           Similar problems were also noted by the Treasury OIG during its review
           of 28 task orders. These conditions occurred because of a lack of planning
           and lack of oversight coordination between FedSource and DoD.
           Although significant improvements occurred in competition, price
           reasonableness, and use of appropriated funds from our prior review,
           issues reported again on interagency agreements, market research, and
           surveillance warrant attention. The lack of complete and current
           interagency agreements limits accountability and responsibility over non-
           DoD procurements. Further, as a result of a lack of contract alternative
           analyses, DoD organizations may not be achieving the most cost-effective
           method to acquire goods and services. Also, for issues raised on
           surveillance, DoD may not be receiving the level of performance it
           contracted for under the terms of the task order.


Interagency Contracting
    The procurements made by non-DoD agencies on behalf of DoD customers
    encompass many actions from the initial requirement to contract completion.
    Initial planning includes defining the requirement in a statement of work,
    establishing deliverables and a cost estimate, followed by determining the most
    cost-effective method to fulfill the order for either goods or services. An
    interagency agreement is to assist with providing terms for conducting business
                                        5
     between the DoD customer and FedSource. DoD transfers appropriated funds to
     FedSource that are to be used by FedSource to award a task order to fulfill one or
     more DoD requirements. These funds are accepted on a reimbursable basis by
     FedSource which is responsible for ensuring that competition occurs and the
     customer obtains a fair and reasonable price. FedSource is to ensure that the best
     value is attained on the award. After award, surveillance should then be
     conducted to ensure that the contractor performed in accordance with the contract.


Acquisition Criteria
     Acquisition Planning. FAR Subpart 7.102(a), “Policy,” states that “agencies
     shall perform acquisition planning and conduct market research … for all
     acquisitions in order to promote and provide for acquisition of commercial items
     or … to meet the agency’s needs,” and to allow for full and open competition to
     the maximum extent possible, with regard to the nature of the supplies or services
     to be acquired. This planning shall integrate the efforts of all personnel
     responsible for significant aspects of the acquisition. FAR Part 10, “Market
     Research,” prescribes the policies and procedures for conducting market research
     to arrive at the most suitable approach to acquiring, distributing, and supporting
     supplies and services. Agencies must use the results of market research to
     determine the sources capable of satisfying the agency’s requirements. FAR
     Subpart 7.105, “Contents of Written Acquisition Plans,” requires organizations to
     consider acquisition alternatives and prospective sources of supplies and services
     that will meet their needs. These actions should be conducted early in the
     procurement planning process.

     Defense Federal Acquisition Regulation Supplement Criteria. Defense
     Federal Acquisition Regulation Supplement (DFARS) Subpart 217.7802,
     “Policy,” implements guidance and policy to comply with the Acting Under
     Secretary for Acquisition, Technology, and Logistics and the Principal Deputy
     Under Secretary of Defense (Comptroller) in the October 29, 2004, memorandum,
     “Proper Use of Non-DoD Contracts, (DoD October 29, 2004, Memorandum) that
     introduces controls to ensure that non-DoD contracts are the best method to
     satisfy DoD requirements. The DFARS states that:
            Departments and agencies shall establish and maintain procedures for
            reviewing and approving orders placed for supplies and services under
            non-DoD contracts, whether through direct acquisition or assisted
            acquisition, when the amount of the order exceeds the simplified
            acquisition threshold. These procedures shall include—
                 (a) Evaluating whether using a non-DoD contract for the
                     acquisition is in the best interest of DoD.

                    •        •       •        •        •        •        •

                (b) Determining that the tasks to be accomplished or supplies to
                    be provided are within the scope of the contract to be used;
                (c) Reviewing funding to ensure that it is used in accordance with
                    appropriation limitations;


                                              6
           (d) Providing unique terms, conditions, and requirements to the
               assisting agency for incorporation into the order or contract as
               appropriate to comply with all applicable DoD-unique
               statutes, regulations, directives, and other requirements; and
           (e) Collecting and reporting data on the use of assisted acquisition
               for analysis.


Interagency Agreements. Section 1535, title 31, United States Code
(31 U.S.C. 1535) prescribes the policy for an agency or major organizational unit
to place orders within the agency or another organization for goods or services,
if:

       •   amounts are available;

       •   the head of the ordering agency or unit decides the order is in the best interest of the
           United States Government;

       •   the agency or unit to fill the order is able to provide or get by contract the ordered
           goods or services; and

       •   the head of the agency decides the ordered goods or services cannot be contracted as
           conveniently or as cheaply by a commercial enterprise.

These orders are Economy Act orders and authorize agencies to enter into
mutual agreements to obtain supplies or services by an interagency acquisition.
Economy Act orders apply when other specific statutory authority does not exist.
FedSource has its own independent statutory authority and orders placed under
its authority are not required to reference the Economy Act to purchase from
them.

Competition. FAR Subparts 6.101(a) , “Policy,” states “that contracting officers
shall promote and provide for full and open competition in soliciting offers and
awarding Government contracts.” FAR Subpart 6.101(b) states that “contracting
officers shall provide for full and open competition through use of the competitive
procedure(s) … that are best suited to the circumstances of the contract action.”
FAR Subpart 16.505, “Ordering,” provides procedures for orders placed under
multiple-award contracts including regulations for fair opportunity and decision
documentation for orders.

        Fair Opportunity. DFARS Subpart 216.5, “Indefinite Delivery
Contracts,” requires that each purchase of products or services by or for DoD in
excess of $100,000 under a multiple-award contract shall provide all awardees a
fair opportunity to perform the statement of the work. DFARS also provides a
waiver from this requirement under certain circumstances. For orders exceeding
$3,000 and issued under a multiple-delivery order or a multiple-task order,
FAR 16.505, “Ordering,” requires the contracting officer to provide each awardee
a fair opportunity to be considered for award. The following are exceptions to the
fair opportunity process.



                                           7
           •   The agency need for the supplies or services is so urgent that
               providing a fair opportunity would result in unacceptable delays.

           •   Only one awardee is capable of providing the supplies or services
               required at the level of quality required because the supplies or
               services ordered are unique or highly specialized.

           •   The order must be issued on a sole-source basis in the interest of
               economy and efficiency as a logical follow-on to an order already
               issued under the contract, provided that all awardees were given a fair
               opportunity to be considered for the original order.

           •   It is necessary to place an order to satisfy a minimum guarantee.

    Price Reasonableness Determination. FAR Subpart 15.402, “Pricing Policy,”
    states that contracting officers must determine price reasonableness and FAR
    Subpart 15.406-3, “Documenting the Negotiation,” states that contracting officers
    must document that the price is fair and reasonable in the price negotiation
    memorandum.

    Surveillance Requirements. FAR Subpart 46.103, “Contracting Officer
    Responsibilities,” provides that contracting offices are responsible for receiving a
    QASP from the requesting activity when contracting for services. FAR
    Subpart 46.103 states:
            Contracting offices are responsible for receiving from the activity
           responsible for technical requirements any specifications for
           inspection, testing, and other contract quality requirements essential to
           ensure the integrity of the supplies or services (the activity responsible
           for technical requirements is responsible for prescribing contract
           quality requirements, such as inspection and testing requirements or,
           for service contracts, a quality assurance surveillance plan).

    FAR Subpart 37.6, “Performance-Based Acquisition,” prescribes the QASP
    requirements for performance-based service contracts. The FAR requires
    agencies to develop QASPs when acquiring services that contain measurable
    inspection and acceptance criteria corresponding to the performance standards
    contained in the statement of work.


Funding Criteria
    Purpose Statute. The purpose statute codified in 31 U.S.C. 1301(a) states that
    appropriations shall be applied only to the objects for which the appropriations
    were made except as otherwise provided by law. The implementation of this
    statute requires that an appropriation be used only for its intended purpose. The
    statute prohibits charging funds to the wrong appropriation.

    Antideficiency Act. The Antideficiency Act (ADA) is codified in a number of
    sections of title 31 of the United States Code. The purpose of these statutory

                                               8
    provisions, known collectively as the ADA, is to enforce the constitutional
    budgetary powers entrusted to Congress with respect to the purpose, time, and
    amount of expenditures made by the Federal Government. Violations of other
    laws may trigger violations of ADA provisions (for example, the “bona fide needs
    rule,” 31 U.S.C. 1502[a]).


DoD Planning
    DoD auditors conducted reviews of 15 DoD organizations that sent funds to the
    Department of the Treasury using Military Interdepartmental Purchase Requests
    (MIPR) for the purchases of goods and services. We found during the second
    review that organizations:

           •   did not perform adequate market research to determine the most
               efficient and economical way to fulfill the requirement;

           •   did not implement detailed interagency agreements with FedSource;

           •   needed improvement related to price reasonableness and competition,
               although progress had been made in these areas from our prior review;
               and

           •   continued to have inadequate contract surveillance, although
               FedSource had a standardized guide for addressing the QASP and
               provided additional training.

    Acquisition Planning. DoD organizations should have documented their
    decisions to contract through a non-DoD activity such as FedSource during the
    acquisition planning phase. FAR Subpart 7.102(b) requires agencies to perform
    acquisition planning and conduct market research for all acquisitions to ensure the
    Government meets its needs in the most effective, economical, and timely
    manner. Assisted acquisitions such as those done by FedSource included a
    3 to 8 percent surcharge that must be considered in deciding whether the
    acquisition should be performed by a DoD activity or by a non-DoD contracting
    office.

            Market Research. None of the 29 task orders reviewed had
    documentation that market research was performed. Market research is defined
    as collecting and analyzing information about capabilities within the market to
    satisfy agency needs. Personnel who formulate requirements at DoD activities
    consistently failed to perform market research on purchases through FedSource.
    FAR Part 10 requires that agencies use the results of market research to determine
    sources capable of satisfying the agency’s requirements. The DoD October 29,
    2004, Memorandum requires the Military Departments and Defense agencies to
    evaluate whether using a non-DoD contract for the procurement of supplies and
    services is in the best interest of DoD. Factors considered are ability to satisfy
    requirements, schedule, cost effectiveness (taking into account discounts and
    fees), and contract administration that includes oversight. DoD program officials
    confirmed that they did not seek other acquisition alternatives because of

                                         9
concerns with the DoD contracting offices ability to timely fill orders within the
fiscal year of the funds. Numerous DoD activities did not document the
contracting alternatives available before using assisted acquisitions. Potential
savings can be realized by contracting within DoD versus procuring through non-
DoD activities and incurring fees by the non-DoD activity when the requirement
is placed on contract and, in some instances, additional fees when the initial non-
DoD activity requests another non-DoD activity to make the award for it. DoD
activities need to document their rationale and basis for the procurement method
used.

Military Interdepartmental Purchase Requests. DoD activities used MIPRs as
the primary document to order goods or services from other DoD Components, as
well as other Government agencies. MIPRs are prepared on a DD Form 448,
“Military Interdepartmental Purchase Requests.” The ordering organization
completing the MIPR should include a description of the supplies or services
requested, unit price, total price, period of performance, and fund cite. The
MIPRs can be accepted as either a reimbursable or direct cite; DoD MIPRs were
accepted as reimbursable by FedSource. For a reimbursable order, the ordering
organization should record an obligation at the time of acceptance. A MIPR
description that is definite, certain, and specific is essential to support the bona
fide need of the procurement. Funds should not be obligated without a detailed
description that allows for a complete understanding on the use of the funds. A
statement of work should be provided with the MIPR or, at a minimum,
referenced on the MIPR to ensure the basis for the purchase is supported by a
specific requirement. Additionally, the period of performance on the MIPR for
services provides a time frame for which the task is required.

        MIPR Description. We identified 3 of 29 task orders valued at
approximately $1.1 million that had MIPRs that lacked a specific detailed
description of the requirement. A detailed description is required to adequately
support a bona fide need for the use of funds. Further, no obligation should occur
on funds that do not have a bona fide need. Defense Finance Accounting Service
Regulation 37-1, chapter 8 on obligating documentation, provides that the signed
MIPR acceptance, Form 448-2, represents an obligation of funds. The obligation
of funds requires documentary evidence and that the description be specific,
definite, and certain. The MIPR is used to obligate funds that will support
contractual work for goods or services. The MIPR description needs to be
detailed or reference the statement of work to adequately support a bona fide need
for the requirement.

        Period of Performance. DoD activities did not consistently include the
period of performance on the MIPRs, as required by DFARS Procedures,
Guidance, and Information 253.208-1, “DD Form 448, Military Interdepartmental
Purchase Request.” We identified 3 of 29 task orders that contained MIPRs
without the period of performance. DFARS Procedures, Guidance, and
Information 253.208-1 requires delivery schedule data on the MIPR. The DoD
ordering activity must clearly state the required time of delivery or performance
on each MIPR, taking into consideration the normal administrative lead time of a
particular good. Further, the delivery and performance schedule must be realistic.
An unrealistic performance schedule can result in under or excess funding of a
project.

                                     10
        DoD Activities Failed to Follow Interagency Contracting Guidance.
DoD activities continued to violate the joint guidance issued by the Under
Secretary of Defense (Comptroller) (USD[C]) and the Under Secretary of Defense
of Defense for Acquisition, Technology, and Logistics on October 29, 2004, and
additional guidance issued by the Deputy Chief Financial Officer on March 24,
2005, (DoD March 24, 2005, Memorandum) regarding the use and control of
DoD funds under interagency agreements. As a result, the USD(C) issued a
memorandum “Proper Use of Interagency Agreements with Non-Department of
Defense Entities Under Authorities Other Than the Economy Act,” on March 27,
2006. Additional documentation requirements were required by the USD(C) to
fund all future interagency agreements (See Appendix D). Funding documents
for severable services must state the following:
        These funds are available for services for a period not to exceed one
       year from the date of obligation and acceptance of this order. All
       unobligated funds shall be returned to the ordering activity no later
       than one year after the acceptance of the order or upon completion of
       the order, which ever is earlier.

       I certify that the goods acquired under this agreement are legitimate,
       specific requirements representing a bona fide need of the fiscal year in
       which these funds are obligated.

The MIPRs issued by DoD activities have been used as agreements to obligate
funds and support individual task order projects contracted through FedSource.
In all 29 task orders reviewed, MIPRs were consistently used over interagency
agreements to fund and initiate the project with FedSource. Of 15 DoD activities
visited, 11 issued MIPRs (equates to 23 task orders) that failed to include one or
both of the required USD(C) annotations. DoD activities have not implemented
USD(C) guidance even when the service develops its own implementing guidance
for conducting non-DoD procurements. For task orders issued by FedSource on
behalf of the DoD activities, MIPRs were issued without annotations by the
Army. Given the attention and numerous policies issued over the past 3 years on
non-DoD procurements, the significant lack of compliance is a concern. The
annotations are to ensure funds are issued with a bona fide need and that excess
funds will be returned when no longer needed. Further, this language is important
to ensure certifying officials are cognizant on the use of the funds being sent to a
non-DoD activity. Despite our prior review, DoD activities are not complying
with guidance such as including certifications to support use of a non-DoD
activity. Each Military Department should designate an accountable official for
distributing policy to the program management, contracting, and resource
management offices and should ensure the fund-certifying official implements the
guidance.

MIPRs Lack Military Department Guidance. The Office of the Assistant
Secretary of the Army for Acquisition, Logistics, and Technology issued a
memorandum titled “Proper Use of Non-Department of Defense (Non-DoD)
Contracts,” July 12, 2005. This memorandum fulfilled the requirements
mandated by the DoD October 29, 2004, Memorandum, directing each Military
Department to develop its own procedures for reviewing and approving the use of


                                         11
    non-DoD contracts. The Army guidance required the fund authorizing official to
    annotate on the MIPR the following statement:
           This requirement has been processed in accordance with Section 854 of
           the Ronald W. Reagan National Defense Authorization Act for Fiscal
           Year 2005 (Public Law 108-375) and the Army Policy memorandum
           on Proper Use of Non-Department of Defense Contracts, dated July 12,
           2005.

    U.S. Army activities issued MIPRs without the statement required by Army
    policy covering non-DoD procurements. Of the 16 task orders reviewed that were
    initiated by 7 Army activities, only 1 task order issued by Fort Hood contained
    the required statement on 1 of the 2 MIPRs used to fund the task order. The
    omission of the required statement on the Army MIPR funding documents shows
    that issuing guidance does not guarantee it will be followed.

    Interagency Agreements. We found 6 of 15 DoD activities reviewed did not
    have an interagency agreement with FedSource comprising 8 of the 29 task
    orders, valued at $5.2 million. The remaining 9 DoD activities, comprising 21 of
    the 29 task orders, had interagency agreements but the agreements were
    inadequate because they were not specific to the purchases. The agreements did
    not identify the responsible management officials overseeing the procurement and
    financial management for the task order. Further, the agreements omitted the
    billing and disbursement process details as required by DoD Instruction 4000.19,
    “Intraservice and Intragovernmental Support,” August 9, 1995. Although the
    Treasury Franchise Fund is under a separate authority, the application of the DoD
    policy provides valuable elements for a sound interagency agreement with which
    DoD and FedSource can conduct interagency contracting. The DoD March 24,
    2005, Memorandum prescribes that all interagency agreements shall be reviewed
    to determine whether they are complete. The USD(C) issued a September 25,
    2003, memorandum, “Fiscal Principals and Interagency Agreements,” which
    requires every order under an interagency agreement to be based upon a
    legitimate, specific, and adequately documented requirement representing a bona
    fide need in the year in which the order is made. DoD activities that lacked an
    interagency agreement for the task order purchase relied upon a MIPR to support
    the procurement, but many contained insufficient detailed descriptions of goods
    or services to be acquired. An interagency agreement completed in accordance
    with DoD Instruction 4000.19 will assist all parties in ensuring that the
    procurement is executed smoothly.


Competition
    Although fair opportunity increased during the second review, we identified four
    task orders valued at $2.3 million where fair opportunity was not provided. Three
    of the four task orders were FasTrac orders and the fourth resulted in a suggested
    source that appeared to be the contractor of choice.

    FasTrac Contracting and Competition. The contracting procedures used by
    FedSource for the FasTrac program were not in compliance with the FAR. In

                                            12
addition, FedSource did not provide all contractors under the FS-9 multiple-award
contract a fair opportunity to compete for the FasTrac program, as required by
Section 803 of the FY 2002 National Defense Authorization Act. The FS-9
consists of nine contractors representing contract numbers TPD-04-C-0013
through TPD-04-C-0021, and each were to have a fair opportunity to bid on task
orders.

        Contracting Method. The FS-9 contracts are each an indefinite-delivery,
indefinite-quantify (IDIQ) contract. An IDIQ contract is not an agreement such
as a blanket purchase agreement. Under IDIQ contracting procedures, the base
contract establishes the terms and conditions for the supplies and services to be
provided, and contains the FAR contract clauses applicable to future task or
delivery orders. According to FAR Part 16.505, orders placed under IDIQ
contracts must include the date of the order, contract number, contract item
number and description, quantity, unit price, delivery schedule, and place of
performance. FedSource originally set up the FasTrac program by issuing a task
order to Amer Technology, Inc., one of the FS-9 contractors on February 10,
2005. This task order was not in compliance with the FAR because it did not
contain specific quantities, delivery dates, prices, and other information required
by the FAR. The FasTrac task order was basically an IDIQ task order with all
future FasTrac orders awarded on a sole-source basis to Amer Technology, Inc.
When a customer submitted a request for specific FasTrac requirements,
FedSource negotiated a task order with Amer Technology, Inc., to fill the
requirement. In effect, a task order was issued against the initial FasTrac task
order. According to the Office of Management and Budget’s “Best Practices for
Multiple Award Task and Delivery Order Contracting, Interim Edition,”
February 19, 1999, agencies should not award large, undefined task orders in an
effort to expedite the award only to issue subsequent sole-source work orders. In
February 2006, prior to exercising the first option year on the FasTrac program,
FedSource officials contemplated using a blanket purchase agreement as a more
appropriate contract vehicle for FasTrac, but did not have sufficient time to
review and re-award the contract. The FasTrac program is not in compliance with
the FAR and FedSource should use a more appropriate contracting method prior
to awarding the final contract option in February 2008.

         FasTrac Competition. FedSource did not compete the FasTrac program
in order to comply with Section 803 of the FY 2002 National Defense
Authorization Act that required that all of the FS-9 contractors be given fair
opportunity to compete on all DoD orders. The FS-9 contract was broken into
tiers: tier 1 had two contractors (Amer Technology, Inc., and Quantell), which
were both small businesses, and the remaining seven contractors comprised tier 2.
When FedSource received a customer requirement (DoD included), it sent the
request for proposal to the tier 1 contractors, regardless of dollar value. If a
proposal was received, it was awarded to one of the tier 1 contractors. If a
proposal was not received, the solicitation would be opened to all of the FS-9
contractors. In order to comply with provisions of Section 803 of the FY 2002
National Defense Authorization Act, FedSource issued a modification to all of the
FS-9 contracts. The modification required that all nine awardees be given fair
opportunity to compete on all DoD orders in excess of $100,000. This required
FedSource to recompete all of the DoD task orders greater than $100,000 that
were solicited to only the tier 1 contractors. Although the task orders issued

                                    13
under the FasTrac program exceeded $100,000, and the program was only
available to the tier 1 contractors, it was never recompeted. As stated above,
FedSource should determine the most appropriate contract vehicle for the FasTrac
program and compete the program to comply with Section 803 and ensure that
DoD receives the best service at the most reasonable price.

Suggested Source Limited Competition. FedSource issued task order number
BAL119922 on September 27, 2006, for $1.8 million on behalf of the U.S. Army
Armament Research, Development, and Engineering Center (ARDEC) for the
Precision Manufacturing Initiative (PMI) project. This is a research and
development effort encompassing studies and analyses for developing improved
manufacturing technologies. FedSource issued a request for proposal (RFP) to
the FS-9 multiple-award contractors on Thursday, July 27, 2006, with a response
deadline of Wednesday, August 2, 2006, amounting to 5 working days. This was
a very short response time for a technically complex research and engineering
project. On August 2, 2006, one of the FS-9 contractors requested an extension
on the RFP due date because of the complexity of the project but was denied.
Amer Technology, Inc., was the only contractor that bid and provided a thorough,
completed proposal on July 28, 2006, one day after the RFP was issued. Amer
Technology, Inc., planned to use two subcontractors, Tiburon Associates and
Olympic Precision, Inc. (OPI), to fulfill the project requirements. FedSource
officials stated they were not aware of an effort to use a suggested source;
however, the MIPR received by FedSource cited OPI as the intended recipient of
the funds. We believe that only an appearance of competition exists since
contracting and funding actions support a suggested source, OPI, to fulfill the
PMI project. This is based on the following factors:

       •   the RFP was issued with limited time to respond;

       •   a contractor response indicated that funds were earmarked;

       •   Amer Technology, Inc., was the only bid submitted and provided a
           thorough, completed proposal 1 day after the RFP was issued; and

       •   the MIPR certified by ARDEC and accepted by FedSource reports
           OPI as the intended recipient of the funds for the PMI project.

The actions taken limited competition and ensured an award to the intended
recipient, OPI, as a subcontractor through FedSource’s Amer Technology, Inc.,
contract.

        DoD Missed Contracting Opportunity on PMI. Prior to using
FedSource, ARDEC had identified three viable sources back in January 2006 that
could have competed for the project. ARDEC contracting errors labeling the RFP
description resulted in the solicitation being retracted and a missed opportunity
for competition. ARDEC did not try to reissue an RFP thereafter and instead
issued a MIPR to transfer funds over to FedSource to fulfill its requirement. The
project manager cited too much time would be lost in the process of redoing the
solicitation. Both ARDEC and FedSource records indicate no consideration
given for the three contractors identified by ARDEC to compete for the PMI
project. The ARDEC contracting actions fell short of achieving competition but

                                   14
    there was insufficient effort on ARDEC’s part to ensure competition would occur
    among those designated contractors identified as technically capable of fulfilling
    the requirements on the PMI project. Suggested sources will limit competition
    and ability to achieve the best value for the DoD customer. DoD should ensure
    that competition is used in every opportunity possible to obtain best price and
    value.


Price Reasonableness
    The contracting officer is responsible for evaluating the reasonableness of the
    prices offered in contractors’ proposals. According to FAR Subpart 15.4,
    “Contract Pricing,” cost or pricing data is not required if the contracting officer
    determines the price is fair and reasonable based on adequate competition. The
    FAR defines adequate competition as two or more responsible offerors,
    competing independently and submitting priced offers that satisfy the
    Government’s requirement. In the absence of competition, the contracting officer
    must use other means to demonstrate price reasonableness such as historical cost
    data, independent cost estimates, market research, or comparison to competitive
    price lists for similar items. Of the 29 task orders reviewed, we determined that
    10 task orders valued at $6.8 million did not have evidence of price
    reasonableness based on our review of supporting documentation in the task order
    files. Contracting officers are required, at a minimum, to document price
    reasonableness of supplies and services in the price negotiation memorandum
    (PNM). We reviewed the PNM for the 29 task orders and identified 12 task
    orders that the PNM did not adequately document that the negotiated price was
    fair and reasonable (there were 2 instances where we determined the price was
    fair and reasonable but it was not documented in the PNM). In addition, 16 of the
    purchases did not have adequate independent Government cost estimates (IGCE).

    Price Negotiation Memorandums. The PNM should provide support for task
    order pricing. However, FedSource did not always adequately document IGCEs,
    results of technical evaluations, or other information to support price
    reasonableness determinations. For example, task order LOS015717, dated
    September 28, 2006, was awarded for $2.9 million to supply local area network
    support to the Norfolk Naval Shipyard. Three bids were received for $334,359;
    $579,917; and $2,952,635. Two IGCEs were prepared, one based on comparison
    to a Government position, and one based on a market survey. The estimated costs
    were $1,387,948 and $1,298,354 respectively. The ICGE was dated November 6,
    2006, which was more than a month after the task order was issued. The award
    was made to the contractor that bid $2.9 million based on best value. The PNM
    did not provide adequate justification as to why the price was considered fair and
    reasonable nor was there any detail supporting the results of the technical
    evaluation. FedSource personnel stated the award was made to the high bidder
    based on the technical evaluation and that FedSource determined that the other
    contractors’ proposals did not satisfy the statement of work. However, there was
    no documentation supporting the technical evaluation ratings either in the PNM
    or the task order file.



                                        15
Independent Government Cost Estimates. We reviewed the IGCEs for the 29
task orders received and identified 16 as inadequate. Fourteen of the 16 task
orders were dated after the contractors’ proposal, with 1 dated more than a month
after the task order was issued. In addition, 6 of the 14 IGCEs that were dated
after the proposal contained pricing data identical to the winning contractor’s
proposal. For an IGCE to be useful in determining price reasonableness, it needs
to be prepared before a contractor’s proposal is received using the most reliable
data available.

Historical Cost. FAR Part 15.402(a) requires the contracting officers to purchase
supplies and services from responsible sources at fair and reasonable prices. In
establishing the reasonableness of the offered prices, the contracting officer must
not obtain more information than is necessary. Some methods used in
determining price reasonableness are competitive bids, comparison of the
proposed price with prices found reasonable on previous purchases (historical
cost), current price list, comparison with similar items in a related industry, and
comparison to an IGCE. We identified task orders that lacked adequate
competitive proposals resulting in only one bid. In these instances, historical cost
was not used to assist in making a fair and reasonable price determination. For
example, Patterson Army Health Clinic task order number BAL119847 issued on
July 3, 2006, for $15,814, was incrementally funded, but the agreed-upon price
was $50,425 for the base year. The task order base year hourly rate was
established at $31.18 for an administrative support position. The IGCE did not
adequately support the labor rate and since this was a recompeted task, the prior
year labor rate could have been considered but was not. Without competitive
bids, historical cost data should have been researched and considered for
determining a fair and reasonable price on the award.

FasTrac Task Orders Lack Price Reasonableness Support. Three of the 10
task orders that did not have evidence of price reasonableness were awarded
under the FasTrac program. All three of the FasTrac orders we reviewed had
inadequate PNMs and IGCEs. The FasTrac program was developed to provide
Federal agencies with a wide variety of electronic learning programs, products,
and services at pre-negotiated discount prices. The program was managed by
FedSource Los Angeles through a task order with Amer Technology, Inc.

FedSource did not follow its internal procedures for processing FasTrac task
orders. The FasTrac standard operating procedure dated August 28, 2006, states
that an IGCE will be prepared based on the published FasTrac prices. The
standard operating procedure also states that a copy of the appropriate page from
the FasTrac pricing schedule will be included with the IGCE so the contracting
officer can use it in reviewing the contractor’s proposal. Prices in the contractor’s
proposal should always be at or below the FasTrac pricing schedule.
Occasionally, a proposal will include a price for a product or service not included
in the FasTrac pricing schedule. When this occurs, the pricing of the item should
be discussed with the vendor to determine whether it is fair and reasonable. The
standard operating procedure also states that the ICGE should be documented in
the PNM and compared to the proposed price to document that the proposal prices
are in compliance with the FasTrac pricing schedule. We reviewed three FasTrac
task orders and found that the IGCE for each order was dated after the
contractor’s proposal, the Government estimate was identical to the contractor’s

                                     16
      proposal, and the PNM did not document that the price was fair and reasonable
      and in accordance with the FedSource pricing schedule. Examples of
      noncompliance with the FasTrac standard operating procedure include:


  •   Task Order LOS015695. This task order, dated September 25, 2006, was for the
      development of a language transcription training tool. The task order was a time-
      and-materials contract for technical and software support. The task order
      included five job positions budgeted for a total of 1,822 hours. The contractor’s
      proposal was dated August 29, 2006, and priced at $186,709. The IGCE was
      dated August 31, 2006, and was also priced at $186,709, and the task order was
      awarded on September 25, 2006, at the same price. Amer Technology, Inc., used
      Science Applications International Corporation as the subcontractor on this task
      order. We reviewed the FasTrac pricing schedule for Science Applications
      International Coporation and found two of the positions (program manager and
      program cost analyst) were not included in the FasTrac pricing schedule. The
      other three positions were priced at an hourly rate below the rate in the FasTrac
      pricing schedule. Per the FasTrac standard operating procedure, the IGCE should
      have been prepared using the FasTrac pricing schedule and compared with the
      contractor’s proposal in the PNM. In addition, there is no evidence in the PNM
      or the task order file that FedSource contacted the contractor regarding the two
      positions not included in the pricing schedule. In addition, there was no evidence
      that FedSource reviewed the proposed labor hours for reasonableness and a copy
      of the page containing the Science Applications International Corporation prices
      in the FasTrac pricing schedule was not included with the IGCE as required by
      the FasTrac standard operating procedure.

  •   Task Order LOS015690. This task order, dated September 20, 2006, was a
      fixed-price task order for five software applications to support distance learning.
      The contractor’s proposal was dated August 31, 2006, and priced at $122,751.
      The IGCE and the task order award were both dated September 20, 2006, and
      both priced at $122,751. The IGCE did not include or reference the appropriate
      page from the FasTrac pricing schedule. We attempted to compare the proposal
      prices with the FasTrac pricing schedule but were unable to find the pricing for
      the five software applications on the pricing schedule. In addition, we asked the
      FedSource customer service representative who prepared the IGCE to provide us
      with the support used to prepare the IGCE and verify the proposal pricing. The
      service representative was not able to produce the pricing scheduling for the five
      applications.

      FedSource personnel responsible for reviewing FasTrac proposals need to
      improve their procedures for reviewing proposals and preparing documentation
      that shows the price paid is in accordance with the pre-negotiated FasTrac pricing
      schedule.


Contractor Surveillance
      Surveillance is vital to ensure successful contractor performance. Contract
      surveillance should start at the beginning of the contract and continue through the

                                           17
length of the contract to ensure the contractor performs all required services.
FAR Subpart 46.4, “Government Contract Quality Assurance,” prescribes that a
quality assurance surveillance plan (QASP) should be prepared in conjunction
with preparation of the statement of work and should specify all work requiring
surveillance and the methods of surveillance. DoD officials frequently prepared
inadequate statements of work citing deliverables that were broad and general. A
QASP is useful to clarify what is expected from the contractor and reduce the
confusion that exists in interagency contracting arrangements. FedSource did not
regularly use the QASP to measure and monitor task order performance because it
relied upon the DoD customer to provide oversight.

Incomplete Surveillance Plan. Each of the 29 task orders we reviewed had
inadequate QASPs. The QASPs were inadequate for several reasons. Some had
no signature approval, others were undated, others designated no responsible
official for conducting surveillance, while others cited broad and general
deliverables that limited the ability to measure performance. A thorough QASP
should clearly identify roles and responsibilities and contain clear and specific
performance metrics to measure contractor progress. DoD requirement officials
could not identify specific contracting officer technical representative (COTR)
surveillance steps performed. Several DoD project officers stated that they did
not rely solely on FedSource to perform contract surveillance. In some instances,
FedSource conducted surveillance on an exception basis for task orders.
FedSource did not actively monitor the task order unless a problem arose and was
reported by a DoD activity. As a result, DoD could not be assured it was
receiving the best quality items or services without an approved and complete
QASP. In addition, DoD may be at risk for receiving substandard performance.

        Plan Lacks Reporting Schedule Between DoD and FedSource. The
QASP should include the method of surveillance, level of surveillance, acceptable
quality levels, and inspection procedures that identify what will be checked.
FedSource QASPs generally captured these factors using its standardized QASP
that reported deliverables, performance standards, acceptance criteria, and method
for review. In addition, the plan included a section to document evaluations
conducted on surveillance, but we found the QASPs lacked a schedule for DoD to
report to FedSource or vice versa. Since the interagency agreements do not
address a schedule for surveillance and coordination between FedSource and the
DoD customer, the QASP should incorporate a schedule for performance
monitoring that reflects the degree of complexity for each task order.

        For example, Naval Air Warfare Center task order BAL119914, dated
September 26, 2006, for technical support, contained a surveillance plan signed
by representatives from DoD and FedSource but the plan did not provide a
schedule covering FedSource responsibilities on the project. Further, no schedule
existed distinguishing either FedSource or DoD oversight and reporting.
Although the plan provides that weekly reviews will be performed by the project
officer for selected deliverables, no written evaluations were available to
demonstrate progress. Also, the DoD project officer believed that the frequency
of reporting was unrealistic and would not actually occur on a weekly basis. The
FedSource project officer guidelines stipulate that surveillance documentation
will be provided by the DoD project officer to the COTR, when requested. Since
FedSource is primarily responsible for contract administration, FedSource should

                                    18
establish a schedule to review and document the DoD customer results in the
QASP. Since the work to be performed is not located at the Naval Air Warfare
Center, a schedule with responsible officials monitoring the work is essential.
Omission of a schedule can lead to a lack of coordination between the DoD
customer and FedSource resulting in failure to conduct evaluations or poor and
untimely reporting of problems. Untimely reporting of performance problems can
result in cost overruns and delays in receiving services. An accurate schedule, as
part of an overall surveillance plan, can improve contract administration and
assure responsiveness to customers.

        QASP Deliverables Progress Unmeasurable. The QASP includes
deliverables and performance standards but task orders were issued without
measurable metrics to determine progress on a project. For example, ARDEC
issued task order BAL119922, dated September 27, 2006, for the precision
manufacturing initiative. A task execution plan listed as a deliverable on the
QASP did not contain a submittal date. The QASP was incomplete as a result of
reporting a deliverable without a delivery date. The task execution plan was to
contain all the scheduled activities on the project to be managed for compliance.
Further, it was to contain the Amer Technology, Inc., quality plan that would
report on the subcontractor performance against task objectives. The QASP
should have contained a delivery date for the task execution plan given its
importance in reporting schedule, cost management, and milestones for each
subtask. A task execution plan provided during our review was incomplete. The
QASP remaining deliverables are not designed to provide the ability to monitor
task order progress. The task execution plan was serving a similar role as a
QASP by containing scheduled milestone date for tasks. The QASP alone did not
contain the research, development, test, & evaluation (RDTE) tasks and
scheduled milestone completion dates. Without a definite early delivery date
established for the deliverable task execution plan, DoD cannot ensure it is being
serviced properly and receiving services within cost and schedule.

Surveillance Responsibilities Unclear. Responsibilities over surveillance on
DoD projects was unclear between DoD and FedSource. The QASP did not
distinguish between DoD and FedSource responsibility and the COTR
designation letter was not tailored to the specific purchase. FedSource officials
stated that they assigned COTRs for each of the task orders reviewed using COTR
designation letters. Although we found this to be the case, designated COTRs
were responsible for numerous contracts. Also, there was a five-to-seven-page
list of surveillance duties to be performed on each contract. We contend that it
was unrealistic to expect one person to complete the long list of assigned tasks.
Designation letters should specify the extent and limitations of the COTR
authority to act on behalf of the contracting officer. The letters should also be
realistic in specifying the scope of the COTR’s responsibilities.

A FedSource ordering guide provides guidance on the roles and responsibilities
for FedSource and the customer agency. Within the guide and referenced on each
QASP is the FedSource project officer guideline. The guide provides for the DoD
customer to conduct surveillance but FedSource did not reduce its fee when the
DoD customer conducted contract administration duties. DFARS 201.6,
“Contracting Authority and Responsibilities,” states that the contracting officer
should manage the award and administration of contracts. Code of Federal

                                    19
    Regulations subpart 2801.70, “Contracting Officer’s Technical Representative,”
    provides that the contracting officer may appoint individuals selected by the
    program office to act as an authorized representative in the monitoring and
    administration of contracts. To assist in administrative duties, contracting officers
    are authorized to designate qualified personnel as the contracting officer
    representative. FedSource designated a COTR for task orders reviewed but the
    role for the DoD customer compared with the COTR over surveillance is not
    clear.

    FedSource surveillance procedures provide for DoD to perform surveillance
    duties and place accountability for problems with the DoD customer while
    FedSource retains responsibility for contract administration. There are unclear
    lines of responsibility over surveillance because of inconsistent designation of
    responsibilities between DoD and FedSource. Specifically, the QASPs did not
    clearly specify responsible surveillance officials and in some instances, omitted
    reporting those individuals providing oversight and reporting. Also, confusion
    exists because the project officer guidelines provide for the DoD customer to be
    responsible for surveillance while the FedSource COTR designation letter
    identifies a FedSource official responsible for surveillance. Additionally, the
    COTR designation letter was not tailored for specific DoD purchases. For
    example, the 88th Regional Readiness Command, Fort Snelling, Minnesota, task
    order LOS015691, dated September 22, 2006, for roof repair on Building 139 at
    Fort Sheridan, Illinois, had an incomplete QASP. The QASP did not identify all
    the pertinent FedSource and DoD management officials monitoring performance
    on the contract and did not include numerous reports available for monitoring
    progress. Although safety was a significant factor for this repair project and
    FedSource provided an onsite project manager over quality control, that
    individual was not identified in the QASP. Additionally, the roof replacement on
    Fort Sheridan would occur in Illinois, not in Minnesota, home of the 88th
    Regional Readiness Command. As a result, this construction project had an
    inadequate QASP that had an unclear designation of responsibilities for contract
    administration and surveillance.


Use of Government Funds
    The 29 task orders reviewed comprised 26 purchases funded using operations and
    maintenance (O&M) funds, 2 purchases funded with research, development, test,
    and evaluation (RDT&E) funds, and 1 purchase funded using Defense working
    capital funds. DoD activities are responsible for designating the correct type of
    appropriation and year of funds for each purchase on a MIPR or interagency
    agreement for non-DoD procurements. Preliminary acquisition planning
    involving a qualified contracting officer and early communication with FedSource
    can prevent the improper use of Government funds, prevent future potential
    Antideficiency Act violations, and prevent the loss of DoD funds. This will
    ensure that DoD purchases made through FedSource and other non-DoD activities
    are in the best interest of DoD and that DoD receives the best value acquisitions.

           Potential Funding Violation. One of 29 purchases used the wrong type
    of appropriation to fund the procurements. The National Security Agency funded

                                         20
    $350,000 on MIPR number H98230-E806-0032 that was prepared on August 25,
    2006, for FedSource to use in award of task order SAN008995 on behalf of the
    National Security Agency. The task order was issued on September 15, 2006, for
    $323,971, and was for development of a computer-based training tutorial package
    to support its counterterrorism training curriculum. The project was funded with
    O&M appropriated funds that were available for information technology efforts
    up to $250,000. O&M funds are generally budgeted to operate and maintain
    organizations and current services. Beyond this threshold, procurement
    appropriated funds are used to acquire and deploy a complete system with a cost
    of $250,000 or more. The funds then are considered used for investment versus
    expense. Further, design and development of 12 Web-based instructional
    tutorials supports use of the RDT&E appropriation. We believe this project
    should have been funded with procurement or RDT&E appropriated funds and
    therefore, the National Security Agency used an incorrect appropriation. This
    situation will be included in an overall report addressing potential funding
    violations and that report will include appropriate recommendations.

    Audit Fund Tracking. As stated in our prior report, DoD did not consistently
    track funds sent to FedSource by MIPRs. No central database within DoD exists
    to track MIPR funds. Each DoD activity utilized its own system or service
    standard accounting system to track the unliquidated obligation balances, but the
    MIPR funds could not be tied to the task order actions. Difficulty exists in
    tracking MIPR funds because the funds may be used to support multiple projects.
    DoD activities relied on FedSource for task order financial obligation and
    expenditure reporting. FedSource utilizes a database known as the FedSource
    Business Management System (FBMS), brought online in October 2004, to
    standardize its fund and cost tracking across all the FedSource centers. Prior to
    its implementation, each FedSource center maintained its own system for task
    order fund tracking and therefore, was more fragmented and decentralized. The
    FBMS provided capability to report funds remaining at FedSource beyond their
    period of availability. FedSource FBMS task order fund reporting is available on
    the DoD funds remaining at FedSource beyond their period of availability. The
    FedSource FBMS identified that DoD should recoup $3.9 million in expired
    funds that were sent to FedSource in FY 2006 (as of May 2007). DoD activities
    should follow up on their unliquidated obligated fund balance during the period of
    availability to ensure funds are used for other purposes prior to their expiration.


Conclusion
    Our second review has shown significant improvements in competition and use of
    appropriated funds with measured improvement in price reasonableness. We still
    identified areas to address but FedSource actions on competition resulted in
    increased fair opportunity for potential bidders. Also, FedSource issued guidance
    to assist in making the correct use of appropriated funds. Surveillance continues
    to need attention, as addressed in our first review, although some steps were taken
    to demonstrate action. For example, FedSource has conducted training and all
    task order files are now contained in a QASP. We did identify one potential
    funding violation but this represents a fraction of the occurrences from our first
    review. A lack of compliance with USD(C) and Military Department guidance

                                        21
     for making purchases through non-DoD activities continues. Overall, we believe
     DoD should continue to use FedSource until it can redirect its business elsewhere
     when FedSource no longer exists.


Management Comments on the Finding and Audit Response

  Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Comments. The Deputy Chief Financial Officer, the Under Secretary of Defense
  (Comptroller)/Chief Financial Officer provided comments. The Deputy Chief
  Financial Officer concurred with the report and intends to review and deobligate valid
  amounts identified by the DoD Components. Also, the Deputy Chief Financial
  Officer will continue to obtain data from FedSource to assist in identifying and
  facilitating the return of expired or excess funding.


  Audit Response. The comments are responsive. The Deputy Chief Financial Officer
  concurred and intends to review and deobligate valid amounts identified by the DoD
  Components.


Recommendations and Management Comments
     We are not making recommendations to the Under Secretary of Defense for
     Acquisition, Technology, and Logistics regarding the various acquisitions and
     contracting issues. Actions needed to correct the problems noted were
     recommended in DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases
     Made Through the General Services Administration,” October 30, 2006. Also,
     recommendations to the Under Secretary of Defense (Comptroller)/Chief
     Financial Officer regarding the potential Antideficiency Act violation are
     addressed in our report “Summary Report on Potential Antideficiency Act
     Violations Resulting From DoD Purchases Made Through Non-DoD Agencies
     FY 2004 Through FY 2007,” due out in FY 2008.

     We recommend that the Under Secretary of Defense Comptroller)/Chief
     Financial Officer deobligate $3.9 million in expired DoD funds in the
     possession of the Department of the Treasury.

     Management Comments. The Deputy Chief Financial Officer concurred and
     intends to review and deobligate valid amounts identified by the DoD
     Components.

     Audit Response. Management comments were responsive to the
     recommendations.


                                         22
Appendix A. Scope and Methodology
   We performed this audit from October 2006 through July 2007 in accordance
   with generally accepted government auditing standards. Those standards require
   that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objectives. We believe the evidence obtained provides a reasonable basis for our
   findings and conclusions based on our audit objectives.

   This audit was a joint review between the DoD OIG and the Department of the
   Treasury OIG. The “National Defense Authorization Act for Fiscal Year 2006”
   requires the DoD OIG and the Department of the Treasury OIG to review whether
   procurement policies, procedures, and internal controls applicable to the
   procurement of products and services on behalf of the DoD are adequate. The
   team reviewed purchases to ensure that funding rules and appropriation law
   applicable to DoD funds were followed, and that the FAR and DFARS procedures
   are followed by the Department of the Treasury, FedSource. We reviewed 29
   task orders valued at $11.2 million at 15 DoD sites. We selected 15 organizations
   with high dollar value task orders. We reviewed task orders from the following
   sites:

          1) Patterson Army Health Clinic;
          2) U.S. Army Armament Research, Development, and Engineering
             Center;
          3) U.S. Army Claims;
          4) Brooke Army Medical Center;
          5) Army Medical Department Center and School;
          6) 88th Regional Readiness Command;
          7) Fort Hood;
          8) Norfolk Naval Shipyard;
          9) Naval Education and Training Command;
          10) Naval Air Warfare Center;
          11) Naval Medical Clinic–Quantico;
          12) Naval Hospital–Corpus Christi;
          13) National Security Agency;
          14) David Grant Medical Center; and
          15) Office of the Under Secretary of Defense for Personnel and
             Readiness.


   For each site, we judgmentally selected task orders from FY 2006 between July 1
   and September 30, 2006. The contract actions included new task orders and
   modifications to basic task orders. We reviewed documentation maintained by
   the contracting organizations to support purchases made through FedSource. The
   purchase documents reviewed were MIPRs and acceptances, statements of work,
   cost proposals, contract award documents, interagency agreements, customer
   request forms, COTR letters, determination and finding documents, task orders,
                                      23
surveillance plans, PNMs, task order modifications, requests for proposals,
IGCEs, orders for supplies and services, and miscellaneous correspondence. We
interviewed DoD program managers, finance officials, resource managers,
FedSource acquisition management officials, contracting officers, and COTRs
covering purchase requirements and acquisition, types of funds used, competition,
fair and reasonable price determination, and surveillance. Our audit covered five
major areas:


   •   We determined whether DoD requiring organizations had internal controls
       for defining requirements and planning acquisitions for purchases awarded
       by FedSource. For each task order reviewed, we determined whether
       there was a bona fide need, whether the requirement was defined, and
       whether acquisition planning was performed.

   •   The second area determined whether DoD organizations used the correct
       type of funds to fund the purchase awarded by FedSource. For each task
       order reviewed, we determined whether the organization had written
       procedures for issuing MIPRs, whether the organization was able to match
       MIPRs to corresponding contract actions, whether the purchase was
       funded with the correct appropriation, and whether the franchise fund was
       used for its intended purpose.

   •   The audit determined whether the Department of the Treasury adequately
       competed DoD purchases according to the FAR and DFARS.

   •   W analyzed whether the Department of the Treasury contracting officers
       adequately documented that the price paid for DoD purchases was fair and
       reasonable. For each task order reviewed, we determined whether the
       contracting officer adequately documented and supported the price paid.

   •   Lastly, we determined whether the Department of the Treasury and DoD
       established procedures for monitoring contractors’ performance. For each
       task order reviewed, we determined whether the contracting officer
       designated a COTR to monitor the contractor’s performance and whether
       the Department of the Treasury had contract surveillance guidelines.


We visited three FedSource Regional Centers responsible for task order award
and administration (Baltimore, San Antonio, and Los Angeles) and the FedSource
Acquisition Center in St. Louis. We also visited the Bureau of the Public Debt,
Administrative Resource Center in Parkersburg, West Virginia, to review the
multiple-award contracts used for issuing task orders, blanket purchase
agreements, and small business administration contracts used to issue task orders
conducted.

Use of Computer-Processed Data. FedSource provided a list comprising the
universe of FY 2006 DoD purchases made through the Department of the
Treasury against the Treasury Franchise Fund. From the list, we judgmentally
selected high-value task orders for review and activities with considerable
procurements. In FY 2006, FedSource issued 26,344 contract actions for all

                                   24
customers representing $404.1 million. FedSource issued 12,354 contract actions
on behalf of DoD in FY 2006 totaling $165.6 million. FedSource has $3.9
million in expired FY 2006 funds to be returned to DoD. In FY 2006 (between
July 1 and September 30, 2006) the 5 FedSource centers processed 251 contract
actions valued at $35.6 million. DoD OIG and Treasury OIG judgmentally
selected 57 basic task orders valued at $24.1 million. The selection was made
from three of the FedSource centers. During the same period, FedSource issued
79 modifications valued at $2.9 million. In total, 330 contract actions were issued
by FedSource from July 1 through September 30, 2006, totaling approximately
$38.5 million. We selected 29 contract actions valued at $11.2 million for review.

Government Accountability Office High-Risk Areas. GAO has identified
several high-risk areas in DoD. This report provides coverage of the high-risk
areas “DoD Contract Management” and “Management of Interagency
Contracting.”




                                    25
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, Army, and Air Force have issued 24
    reports relating to interagency contracting and military interdepartmental
    purchase requests. Specifically, GAO and DoD IG have issued reports related to
    the Department of the Treasury Franchise Fund. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports. Unrestricted Army reports
    can be accessed at http://www.hqda.army.mil. Unrestricted Air Force reports can
    be accessed at http://www.afaa.hq.af.mil.


GAO
    GAO Report No. GAO-07-310, “High-Risk Series: An Update,” January 2007

    GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-456, “Franchise Funds Provide Convenience, but
    Value to DOD is Not Demonstrated,” July 2005

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005

    GAO Report No. GAO-03-1069, “Budget Issues: Franchise Fund Pilot Review,”
    August 2003
    GAO Report No. GAO-02-734, “Contract Management: Interagency Contract
    Program Fees Need More Oversight,” July 2002


DoD IG

    DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the
    U.S. Department of Veterans,” December 20, 2007

    DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the
    National Institutes of Health,” November 15, 2007

    DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
    Department of the Interior,” January 16, 2007


                                       26
   DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
   DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

   DoD IG Report No. D-2007-032, “Report on FY 2005 DoD Purchases Made
   Through the Department of the Treasury,” December 8, 2006

   DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
   National Aeronautics and Space Administration,” November 13, 2006

   DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
   General Services Administration,” October 30, 2006

   DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act
   Violations Identified During the Audit of the Acquisition of the Pacific Mobile
   Emergency Radio System,” November 23, 2005

   DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
   Services Administration,” July 29, 2005

   DoD IG Report No. D-2005-003, “DoD Antideficiency Act Reporting and
   Disciplinary Process,” October 14, 2004

   DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the
   Research, Development, Test and Evaluation, Defense-Wide Appropriation
   Account 97 FY 1989/1990 0400,” May 28, 2004

   DoD IG Report No.D-2004-015, “Contract for Professional, Administrative, and
   Management Support Services,” October 30, 2003

   DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
   Purchase Requests at the Air Force Pentagon Communications Agency,” May 13,
   2003

   DoD IG Report No. D-2002-110, “Policies and Procedures for Military
   Interdepartmental Purchase Requests at Washington Headquarters Services,”
   June 19, 2002

   DoD IG Report No. D-2002-109, “Army Claims Service Military
   Interdepartmental Purchase Requests,” June 19, 2002


Army

   Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
   Management,” May 25, 2004

                                       27
    Army Report No. A-2002-0536-IMU, “Military Interdepartmental Purchase
    Requests, Logistics Assistance Group Europe,” August 21, 2002


Air Force

    Air Force Report No. F2005-0006-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 353d Special Operations Group,
    Kadena AB, Japan,” November 10, 2004

    Air Force Report No. F2004-0046-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 390h Intelligence Squadron,
    Kadena AB, Japan,” August 11, 2004


Treasury IG

    Treasury IG Report No. OIG-08-002, “Acquisitions: Although Weaknesses Still
    Exist, the Treasury Franchise Fund Improved Compliance with DoD Procurement
    Requirements,” October 29, 2007

    Treasury IG Report No. OIG-07-026, “Acquisitions: Treasury Franchise Fund
    Needs to Improve Compliance with Department of Defense Procurement
    Requirements,” January 16, 2007




                                      28
Appendix D. Regulations

Guidance on Interagency Agreements
DoD Policy on Interagency Agreements. The DoD Deputy Chief Financial Officer
issued a March 24, 2005, memorandum, “Proper Use of Interagency Agreements for
Non-Department of Defense Contracts Under Authorities Other Than the Economy Act”
(DoD March 24, 2005, Memorandum). This memorandum, in conjunction with the DoD
October 29, 2004, Memorandum, establishes DoD policy on assisted acquisitions to
ensure that interagency agreements (under other than the Economy Act) for non-DoD
contracts are used in accordance with existing laws and DoD policy. To save
Government resources, the DoD March 24, 2005, Memorandum directs the following
actions.

       •   For services ordered through an interagency agreement, funds provided to the
           servicing agency that have expired must be deobligated and returned from the
           servicing agency unless the request for services was made during the period of
           availability of the funds; the order was specific, definite, and certain, with
           specificity similar to contractual orders; and severable services were ordered
           with a period of performance that does not exceed 1 year.

       •   For goods ordered through an interagency agreement, funds provided to the
           servicing agency that have expired must be deobligated and returned from the
           servicing agency unless the request for goods was made during the period of
           availability of the funds and was for goods that, solely because of delivery,
           production lead time, or unforeseen delays, could not be delivered within the
           period of availability of those funds.

The Army, Navy, and Air Force issued supplemental guidance, “Proper Use of Non-DoD
Contracts.” The services implemented guidance and policy to comply with the DoD
October 29, 2004, Memorandum. The Army guidance was approved on July 12, 2005,
which was beyond the January 1, 2005, deadline. The Air Force and Navy issued policy
on December 6, 2004, and December 20, 2004, respectively. All Military Department
memorandums were effective on or after January 1, 2005.

Subsequent to the DoD IG fulfillment of the congressionally mandated reporting deadline
of March 15, 2006, the Under Secretary of Defense (Comptroller) issued a memorandum
on March 27, 2006, “Proper Use of Interagency Agreements with Non-Department of
Defense Entities Under Authorities Other Than the Economy Act” (DoD
March 27, 2006, Memorandum). This memorandum contains guidance issued because of
violations of policies and existing regulations on non-DoD purchases. DoD Components
are to perform the following corrective actions; failure to complete these actions may
result in revocation of authority to transfer funds to non-DoD entities executing
interagency agreements.

       •   Review all interagency agreements, close out all completed agreements, and
           coordinate with the outside entity to return all funds remaining on completed
           agreements no later than June 30, 2006.


                                           32
       •   Funds provided to a servicing agency for services or goods where the funds
           are past their period of availability (“expired funds”) shall be deobligated no
           later than June 30, 2006.

       •   All future interagency agreement funding documents for severable services
           shall state that funds are available for services for a period not to exceed
           1 year from the date of obligation and acceptance of this order.

       •   The interagency agreement will include the statement “I certify that the goods
           acquired under this agreement are legitimate, specific requirements
           representing a bona fide need of the fiscal year in which these funds are
           obligated.”

       •   Include a specific attestation on the triannual review certification that all
           existing interagency agreements are consistent with DoD policy.

       •   Provide a report on the amount reviewed and deobligated no later than
           July 15, 2006.

Guidance on Use of Appropriated Funds
DoD Financial Management Regulation Guidance. The DoD Appropriation Act of
FY 2005 defines the use of each appropriation and sets specific timelines for use of the
appropriations. However, the DoD Financial Management Regulation, volume 2A,
chapter 1, provides guidelines on most commonly used DoD appropriations for
determining the correct appropriation to use when planning acquisitions.

        Expenses and Investments. All costs are classified as either an expense or an
investment. Expenses are costs of resources consumed in operating and maintaining the
DoD and typically have an approved threshold limit of $250,000 for expense and
investment determinations. Investments are costs to acquire capital assets, such as real
property and equipment, and have a cost higher than the currently approved dollar
threshold of $250,000 for expense and investment determinations. Costs budgeted in the
operation and maintenance (O&M) appropriations are considered expenses. Costs
budgeted in the procurement appropriations are considered investments. Costs budgeted
in the research, development, test, and evaluation (RDT&E) appropriations include both
expenses and investments.

       O&M Appropriations. Expenses incurred in continuing operations and current
services are budgeted in the O&M appropriations. Modernization costs under $250,000
are considered expenses, as are one-time projects, such as development of planning
documents and studies. O&M funds are available for obligation for 1 year.

       RDT&E Appropriations. Research, development, test, and evaluation
requirements, including designing prototypes and processes, should be budgeted in the
RDT&E appropriations. In general, all developmental activities included in bringing a
program to its objective system are to be budgeted in RDT&E. RDT&E funds are
available for obligation for 2 years.

Antideficiency Act Violations. Financial Management Regulation volume 14, chapter
3 states that the DoD IG may advise in a report that a potential violation may have
                                             33
occurred. Generally, the audit report will include a recommendation to investigate the
potential violation. Within 10 business days of receipt of a draft report alleging a
potential violation, the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, the Assistant Secretary for Financial Management of a Military
Department, or the Comptroller of a Defense agency or DoD Field Activity, as
applicable, shall request that a preliminary review of the potential Antideficiency Act
violation be initiated within the next 30 days. The DoD Component shall supply the
status of the preliminary review or formal investigation as requested by the applicable
organization. Generally, the existence of a potential violation shall be established during
the preliminary review and before a formal investigation begins. The purpose of the
formal investigation is to determine the relevant facts and circumstances concerning the
potential violation and whether the violation occurred, what caused it, what are the
appropriate corrective actions, and lessons learned.




                                            34
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Army Inspector General
Auditor General, Department of the Army
Commander, U.S. Army Criminal Investigations Command
Commander, U.S. Army Fort Hood
Commander, U.S. Army Patterson Health Clinic
Commander, U.S. Army Brooke Army Medical Center
Commander, U.S. Army Medical Department Center and School
Commander, U.S. Army Eighty-Eighth Regional Readiness Command
Commander, U.S. Army Claims Services, OTJAG
Director, U.S. Army Armament Research, Development and Engineering Center

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Health Clinic Quantico
Commander, Naval Education and Training Command Dam Neck
Commander, Norfolk Naval Shipyard
Commander, Naval Air Warfare Center
Commander, Naval Hospital Corpus Christi




                                          35
Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Headquarters United States Air Force, Deputy Chief of Staff, Manpower
  and Personnel
Commander, David Grant Medical Center

Combatant Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget
Bureau of Public Debt, Department of the Treasury
FedSource, Department of the Treasury
Inspector General, Department of the Treasury

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                         36
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       37
38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Eric B. Edwards
Martin I. Gordon
Bernard M. Baranosky
Sherney W. Alexander
Brandy L. Smith
Meredith H. Johnson
